<html>
<title> - SECURITY UPDATES SINCE SEPTEMBER 11</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



          HEARING ON SECURITY UPDATES SINCE SEPTEMBER 11, 2001

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 10, 2002

                               __________

      Printed for the use of the Committee on House Administration



82-351              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York

                           Professional Staff

                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director

 
                  SECURITY UPDATES SINCE SEPTEMBER 11

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2002

                          House of Representatives,
                         Committee on house Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:35 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
[chairman of the committee] presiding.
    Present: Representatives Ney, Ehlers, Mica, Doolittle, 
Hoyer and Fattah.
    Staff Present: Paul Vinovich, Staff Director; Channing 
Nuss, Deputy Staff Director; Fred Hay, Counsel; Jeff Janas, 
Professional Staff Member; William H. Cable, Minority Staff 
Director; Charles Howell, Minority Chief Counsel; Sterling 
Spriggs, Minority Technology Director; Matt Pinkus, Minority 
Professional Staff Member; and Michael Harrison, Minority 
Professional Staff Member.
    The Chairman. The committee will come to order.
    Today the Committee on House Administration is holding an 
oversight hearing on the progress and direction of Capitol 
security, emergency preparedness and infrastructure upgrades in 
the U.S. House of Representatives since September 11, 2001.
    I would also like to note, please, if you could turn off or 
put on silent cell phones and BlackBerries and other electronic 
devices.
    I also want to thank the House recording studio for setting 
up the internal distribution of this through the House system 
today.
    As we open today, I first want to thank all of our 
witnesses for being here. I know this is a very busy time for 
everyone. I also want to thank our audience for their interest 
as well. Ultimately security and emergency preparedness depends 
on the diligence and cooperation of everyone who serves, works 
or visits here to the Nation's Capital.
    The purpose of this hearing today is to step back a moment 
from the hurried pace that we have all been proceeding under 
the past year to address the new security realities and the way 
the systems operate here in the U.S. Capitol since September 
11, 2001, and to take measure of how far we have come and where 
we want to focus our time and resources as we move forward 
beyond the first anniversary of that terrible day for our 
Nation.
    We should all take a great deal of pride in what we have 
collectively accomplished, everybody involved, all of the 
staffs, the officers, staff on a bipartisan basis of the U.S. 
House. I especially also want to thank this committee, our 
Ranking Member, Steny Hoyer, all of the Members, Republican and 
Democrat, of this committee who is not one single instance 
since 9/11 has injected one bit of politics in this. When 
decisions had to be made, it was done on a bipartisan, 
cooperative basis. I appreciate that, I know the Nation does, 
in order to keep the people's House in operation. So we should 
have a great pride in what we have accomplished, again, 
everybody in attendance here today, but the dedicated staff who 
behind the scenes have also done the work, and all of our 
professional working men and women of the officers of the 
House, their staffs, obviously including Capitol Hill Police.
    The human tragedy that unfolded on September 11th stirred a 
tremendous collective resolve amongst all Americans. It is with 
this determined resolve that the committee and the witnesses 
before us have marshaled their efforts. Make no mistake, we 
have a lot of hard work ahead of us, and we are going to as we 
continue to ensure that the House of Representatives remains 
the people's House, an open house, but ultimately it must be a 
secure House.
    Protecting the Capitol from the threats that face us in 
this post-9/11 world has been and must continue to be the 
highest priority. Let us also not forget that the attacks did 
not end for us on September the 11th, but continued the 
following month with the attacks on anthrax through the mail 
system, forcing the evacuation and relocation of the entire 
campus.
    Continuity of government and disaster recovery no longer 
were concepts to plan for in the future, but were the realities 
with which we were faced for so many trying days last fall. We 
should also not that there was a working group put together the 
very next day after 9/11 and involved officers of the House, 
the staff, House Administration, Appropriations, the leaders, 
Speaker Hastert's officer, Leader Gephardt. And that was a good 
working group that has had an ongoing process as we speak 
today.
    As a result, however, I am convinced that we have shown the 
world that we are resilient and more focused than ever to meet 
any challenge. We are stronger, safer, wiser and even more 
determined than before to secure our Capitol as an open venue 
forever to conduct the people's business.
    The Committee on House Administration's oversight role 
includes physical security, information security, and emergency 
preparedness for the House and Capitol complex, as well as the 
oversight and coordination of the House officers as they 
perform their duties related to these issues.
    The committee has been actively and consistently engaged in 
new security measures and the approval of the security-related 
devices installed in the Capitol buildings and the surrounding 
House office buildings. The committee's efforts have focused 
attention on life safety, emergency preparedness and Capitol 
security. As part of these efforts, we have developed and 
explored new technologies and accelerated efforts to ensure the 
continuity of legislative and constituent service operations. 
In its oversight capacity, the Committee on House 
Administration has worked closely in planning and coordinating 
the efforts of the Sergeant at Arms, Chief Administrative 
Officer and the Clerk of the House on all of these priorities.
    I look forward to hearing from each of our witnesses today, 
from their perspective as how far we have come over the last 12 
months, receiving an update on where they feel we stand today, 
and what they see as the challenges they face in their capacity 
as we move forward into the next year and beyond.
    Campus security, emergency preparedness and disaster 
recovery are all evolving objectives, works in progress, and 
with each passing day are hopefully more completely realized, 
but with the understanding that we will never meet a day where 
we can say that we are going to be finished. This is why all of 
us have been forced to think outside of the box that we have 
become so comfortable with and operating within, and have had 
to think in new and creative ways to address the challenges 
with which we are faced.
    Toward that end I am convinced that we must take a thorough 
look at the way we manage and meet all of our needs. There is 
no question, too--and I want to just mention parking for a 
second. Most of our requests come in the area of parking a lot. 
I think there is also no question that the underground parking 
facilities in the House office buildings, although convenient, 
pose some serious challenges.
    I think it is time to look seriously at options with which 
we can allow the construction of alternative parking facilities 
to replace the underground parking. Ultimately that would allow 
for the use of space within our office buildings which we are 
currently pretty well squeezed. These buildings were designed 
years ago, and I think we could more efficiently utilize that 
space for needs that benefit the campus in general. The 
committee will be taking action to direct the House officers to 
report back to the committee with a comprehensive plan to study 
the associated actions inherent to such a review and supply it 
to the committee for consideration. I would also encourage the 
Architect of the Capitol to include such a discussion in their 
master planning process as they assess the long-term needs of 
the Capitol.
    I won't spend any more time on the point, expanding on my 
ideas and concerns, as I am sure that we will have a great deal 
to say. I welcome any comments the witnesses may have on these 
or any other relevant concerns.
    Additionally, as you know, you can all recall last fall I 
convened a working group comprised of the House officers, the 
Architect, the Capitol Police, representatives from House 
leadership and the Appropriations Committee, I mentioned it 
earlier, to work together to identify objectives and focus 
solutions in response to the attacks. That working group 
worked, I think, in a very effective way to address the 
immediate short-term concerns and to have long-term planning. 
And you might want to comment on the progress of that 
arrangement, because I think it worked quite well.
    I also want to talk about, just for a second, the 
expectations and the format of today's hearing. Due to the 
nature of today's subject matter, I have decided that it is 
appropriate to conduct the first part of the hearing in open 
format, but for the second portion of our hearing, I would 
entertain a motion to close the meeting and proceed in 
executive session in order to give the Members and witnesses 
here today an opportunity to ask and answer as candidly as they 
can certain questions which involve sensitive law enforcement 
information. As such, I would ask for the understanding and the 
cooperation of the press and all others in attendance in the 
audience at that time.
    Further, I would ask our Members and witnesses to be 
mindful in the first portion of our hearing to reserve any 
comments or questions with respect to any specific process or 
procedure which may involve sensitive law enforcement 
information. So if a question is asked, and you feel it is 
sensitive, just, of course, feel free to speak up on that.
    I want to also point out historically in my time in public 
office, I have always supported, you know, an open system, but 
there are certain things I think that would hurt all of the 
visitors at the Capitol, the media, the staff and everyone if, 
in fact, they were discussed in open venue. I think that is 
pretty well understood.
    Also, I would like to, you know, proceed in a second here 
to ask our Ranking Member and any other Members if they would 
like to make an opening statement.
    But just again let me just say that the purpose of this 
hearing is to show the amount of progress we have made, to 
discuss ideas that are out there. We have had, I think, a 
tremendous staff, and that includes the House, personal office 
of the committee, officers of the House, that also underwent 
quite a trauma here in the Nation's Capital, and they all 
chipped in and they kept the people's House going, and I think 
that they need tremendous credit for that.
    Again, I just appreciate the Ranking Member, Congressman 
Ehlers, and all of the other Members of the committee, you just 
did a tremendous job in the last year of working. I commend the 
officers of the House and their staff. They have made it their 
charge every single day to keep the people's House open to the 
people and to keep this Capitol running, and I commend you for 
it.
    The Chairman. With that, I would like to turn to our 
Ranking Member, Mr. Hoyer of Maryland.
    Mr. Hoyer. Thank you very much, Mr. Chairman. On Friday the 
Members of the House and Senate and many staff went to Federal 
Hall in New York, where 211 years ago this Congress met. We 
have a great pride in the fact that this Congress is the oldest 
continuous democratic body in the world.
    On September 11th of last year, terrorists struck at us to 
both make a point and try to undermine that way of life and 
that Nation. In that respect they failed. Obviously they 
succeeded in changing our lives, they succeeded in costing us a 
lot of resources, but they did not succeed in their basic 
objective.
    I first want to thank Bob Ney. This committee is a pleasure 
to serve on. It is a pleasure to serve on it because Bob Ney 
runs this committee in a bipartisan, open fashion, so that 
every Member has input, and every Member feels that their views 
are taken into consideration.
    In particular, as the Ranking Member, I find Chairman Ney, 
to be someone with whom I have forged not only a very positive 
working relationship, but a deep friendship as well. His 
leadership of this committee post-September 11, I think, was 
important for this institution and important for this country, 
and I congratulate him on that leadership.
    We are here today to review the many initiatives which the 
committee, and the Capitol Police, and the security support 
staff of the House have undertaken to ensure safety and 
facilitate communications in times of emergency.
    Immediately after September 11th, a large number of our 
staff performed extraordinary service to the House. While it 
was not necessary for us to meet off campus, if you will, our 
staff working around the clock after September 11th had ensured 
that we had that ability if we were required to do so. And we 
all thank them for not only the great talent that they have, 
but their patriotism and willingness to go far beyond the call 
of duty to serve their country and to serve this Congress.
    We are here today to renew everyone's understanding that 
Members obviously bear the ultimate responsibility of what this 
institution does, and the policies that it adopts, the security 
measures that it installs. We are responsible for that as 
Members, but we look to our staff to carry out policies. So we 
are here today to again review and consider the unfolding 
security initiatives in the wake of September 11th. The 
barbarism of that day will not diminish our resolve to address 
this Congress', this country's and the world's evolving 
concerns.
    While the culprits and their accomplices are rooted out and 
brought to justice, the Congress will continue its important 
work in furtherance of the Nation and the world based on 
democracy, tolerance and mutual respect. It is our solemn duty 
to ensure that terrorism never triumphs over freedom.
    Our hearing today will highlight some of the things which 
we have done and are doing to ensure that terrorism has no 
place to strike and no place in the civilized world. We will do 
what we can and what we must and will not be deterred by the 
threats of terrorists.
    It is fitting today, as we reflect on the events of a year 
ago and the actions we have taken in the interim, that we 
conduct the business of this institution, Mr. Chairman, as you 
have said in public, to the greatest extent practical and in a 
manner consistent with the increased security concerns of our 
experts.
    I might say in passing that I think that all of us are 
concerned with the fact that the Capitol looks a little 
different, a little less open, a little less hospitable to 
those who own this Capitol and who glory in its role that it 
plays in their country. However, we are accommodating reality 
not only to protect these buildings, but also to protect the 
people who come to this building to participate in democracy 
here in their Capitol. Some information obviously, as the 
Chairman has pointed out, we are going to have to take in 
executive session not to preclude the American public, but to 
preclude those from having information which might facilitate 
their evil work.
    So, Mr. Chairman, I congratulate you. If there is a message 
in today's hearing, it is that terrorism will not succeed in 
changing, diluting or diminishing mankind's inevitable movement 
toward individual freedom and liberty, the very foundation of 
this Nation. I thank you for convening this hearing, and I will 
reiterate at the end, but I say at the beginning, to all of you 
who represent the thousands of people who have worked so 
diligently, so selflessly, so effectively since September 11th 
to ensure the integrity of our democracy and the safety of this 
Hill and of the people who visit and work here, we thank them.
    Thank you, Mr. Chairman.
    The Chairman. Thank the Ranking Member for his thoughtful 
comments.
    Turn to Mr. Ehlers, who has been a diligent member of this 
committee and also is our quasi-scientific and technology 
advisor.
    Mr. Ehlers. Well, that is correct except for the 
``quasi.''.
    Thank you, Mr. Chairman. Thank you for calling this 
hearing. I think it is certainly essential that we do this and 
review what has happened in the past year. I do not have a 
formal opening statement, but I also want to express my 
appreciation to the staff. It has been a tough year. Very tough 
year on all of us.
    And I suspect, none of us have worked as hard as we have 
this past year, because not only dealing with terrorism and the 
terrorist acts and the increasing security and all of the 
things that this committee is concerned about, but every 
committee has dealt with legislative initiatives necessary to 
deal with the terrorism, the dangers we face and our response 
to them, and that continues to this day and will likely 
continue for some time.
    It has been a very busy, extremely stressful year for many, 
many people, and I express my thanks to everyone in this 
institution that has worked so hard to accomplish what we have 
accomplished. I look forward to the testimony.
    Obviously, we have not done as well as we could in many of 
the things that we tried to do. It is important for us to 
pinpoint those, not in the sense of seeking retribution or 
anything of that sort, but rather so that we can learn from the 
mistakes and make the system work even better than it has.
    So I appreciate having this hearing called, and I look 
forward to the testimony and discussion. With that, I will 
yield back.
    The Chairman. Thank the gentleman for his comments.
    We will begin with Jay Eagen, our CAO for the House.

STATEMENT OF JAMES M. EAGEN, III, CHIEF ADMINISTRATIVE OFFICER, 
                 U.S. HOUSE OF REPRESENTATIVES

    Mr. Eagen. Thank you, Mr. Chairman. I have submitted a full 
statement for the written record.
    Good afternoon. Mr. Chairman, Mr. Hoyer, members of the 
committee, I am pleased to be here today to provide you with 
information, answer your questions concerning the business 
continuity and disaster recovery program at the House of 
Representatives.
    The House has made great strides in improving our disaster 
preparedness and recovery capabilities, and I want to thank the 
numerous House staffs that have work tirelessly to achieve all 
that we have in the months that have passed since the events of 
last fall, and who continue to do so to help us accomplish our 
future goals.
    I am also most grateful for your assistance, Mr. Chairman, 
in support of our efforts, Mr. Hoyer, and that of the committee 
members as well as the committee staff on both sides. We still 
have many challenges ahead of us, and I look forward to working 
with you and the committee in meeting them.
    With my testimony I intend to cover three topics: an 
overview of the business continuity and disaster recovery 
lessons learned, the actions taken to date in response to those 
lessons learned, and finally, planned capabilities that are 
scheduled for delivery over the next year.
    The impact of September 11th and the anthrax attack on the 
House's ability to conduct its business were carefully 
evaluated, and the effectiveness of the immediate responses 
were assessed to see how improvements could be made in the 
event of a similar circumstance. The challenges experienced as 
a result of September 11th and the anthrax attack were 
classified into three solution areas: Continuity of operations, 
communications, and technology.
    The following high-level lessons learned were developed: 
For continuity of operations, it is clear that we need to 
establish prearranged office facilities with the necessary 
infrastructure to enable short setup time when Members, 
leadership, committees and their staffs are unable to access 
current facilities.
    Second, we need to create well-defined, coordinated, 
integrated and expanded processes, and procedures that are 
documented and regularly exercised.
    And, third, establish an off-site mail facility capable of 
handling mail and packages from the U.S. Postal Service as well 
as other shippers.
    For communications it is evident that we need to have 
multiple methods of communication during and immediately 
following an emergency event, and that we need to test each of 
these solutions against the goal of providing Members, the 
leadership, committees and their staffs with communications 
anywhere, anytime.
    With regard to technology, we need to create a systemwide 
off-site redundancy with automatic fail-over capabilities to 
ensure that key systems and current data are available anytime 
there is a failure at the House campus; and finally, ensure 
that off-site capabilities are available to Member offices to 
afford them protection when their system fails or when they 
cannot access the system while they are dislocated from their 
current offices.
    Following September 11th, the House identified 27 
initiatives to address near-term, midterm and long-term 
business continuity in disaster recovery needs. Following up on 
immediate responses to the anthrax attacks, a formal Business 
Continuity and Disaster Recover Program Management Office was 
established within the Chief Administrative Officer. Through 
the efforts of this office, the initial 27 initiatives were 
restructured into 19 projects with specific goals and 
objectives that tied back to the lessons learned and their 
associated deficiencies and continuity of operations, 
communications and technology. Further, the projects have a 
fully developed charter as well as an integrated budget and 
milestone schedule that focuses on delivering specific 
capabilities.
    I am pleased to report that substantial and specific 
capabilities have been added to the three identified solution 
areas. Under continuity of operations, emergency preparation 
guidelines have been distributed to all offices, all emergency 
response personnel have been identified, HORT, House Operations 
Recovery Team drills, are being conducted, and lessons learned 
from each drill are being implemented.
    Second, complete office space assignments for the alternate 
House offices have been made. Interim computer network and 
telephone connectivity have been established, and notebook 
computers and printers have been preconfigured and are 
prestaged in storage for immediate support.
    Third, funding and staffing to support 24-hour-a-day, 7-
day-a-week operations have been approved, and hiring actions 
are under way in order to maintain and monitor critical House 
information systems as well as support the Emergency 
Communications Center.
    In the communications area, BlackBerries were distributed 
to all Members following September 11th. Government emergency 
telecommunications services, or GETS, accounts have been 
established, and the cards have been delivered to all Members.
    The Emergency Communications Center has been integrated 
with House Information Resources operations. Included in the 
center is a direct line to the U.S. Capitol Police Command 
Headquarters as well as a BlackBerry Member emergency 
notification capability and an automatic telephone dial-out 
emergency message notification capability for Members.
    Under technology, dial-in and broadband remote access 
services capacity has been doubled. An inbound fax system pilot 
is underway to test the viability of receiving and distributing 
faxes electronically as a potential means of reducing paper 
mail. Preparation for a digital mail pilot program is nearing 
completion.
    A diverse Internet connection has been implemented to 
remove single points of failure, and we have been actively 
working with the Legislative Branch Task Force on selecting an 
alternative computer facility and alternative business center 
site.
    While considerable progress has been made to date, many 
additional business continuity and disaster recovery 
improvements are anticipated. Over the next year, for 
continuity of operations we plan to complete a business 
continuity/disaster recovery gap analysis and propose steps to 
close the gaps and to integrate and document all emergency 
response procedures to include finalizing procedures with the 
U.S. Capitol Police on near-term and long-term notification 
processes.
    We plan to extend hours for the House Information Resources 
Calls Center, Emergency Communications Center, and Network 
Operations Center to 24 hours a day, 7 days a week.
    For communications we plan to procure and configure 
additional computer and office equipment to support mobile 
emergency response centers; plan to finalize recommendations on 
procuring emergency communications vans and private cellular 
services to help overcome the access problems experienced with 
public cellular and dial-up service.
    And for technology, we plan to upgrade the whip phone 
system to provide automated emergency notification capability, 
implement the alternative computer facility and alternative 
business center, and conduct simulated outage tests; and 
finally, complete the digital mail pilot, implement the 
approved recommendations.
    Significant progress has been made since the initial 
response to September 11th and later to the anthrax attack, and 
the approved budget is sufficient to carry out the remainder of 
the initiates under the Business Continuity and Disaster 
Recovery Program.
    Again, I want to thank all of the members of the committee 
for your support and assistance over the last year, and I look 
forward to continuing to work with you, and I thank you for the 
opportunity to testify today.
    The Chairman. Thank the gentleman for his testimony.
    [The statement of Mr. Eagen follows:]

   Testimony of Hon. James M. Eagen III, Chief Administrative Officer

    Good afternoon, Chairman Ney, Mr. Hoyer, and Members of the 
Committee. I am pleased to be here today to provide you with 
information and answer your questions concerning the business 
continuity and disaster recovery program at the House. The House has 
made great strides in improving our disaster preparedness and recovery 
capabilities. I want to thank the numerous House staff who worked 
tirelessly to achieve all that we have in the months that have passed 
since the events of last fall--and who continue to do so to help us 
accomplish our future goals.
    I am also grateful for your assistance and support of our efforts, 
Mr. Chairman, and that of the Committee Members, and the staff. We 
still have many challenges ahead of us and I look forward to working 
with you and the Committee on meeting them.
    With my testimony, I intend to cover the following topics:
    1. An overview of the business continuity and disaster recovery 
lessons learned in the aftermath of the evacuation of the Capitol and 
House office buildings on September 11 and subsequent anthrax attack in 
October 2001.
    2. The actions taken to date in response to those lessons learned.
    3. And finally, the planned capabilities that are scheduled for 
delivery over the next year.
          lessons learned post september 11 and anthrax attack
    The impact of September 11 and the anthrax attack on the House's 
ability to conduct its business were carefully evaluated. And the 
effectiveness of the immediate responses was assessed to see how 
improvements could be made in the event of a similar circumstance. The 
challenges experienced as a result of September 11 and the anthrax 
attack were classified into three solution areas (continuity of 
operations, communications, and technology), and the following high-
level lessons learned were developed:
    <bullet> For continuity of operations, it was clear that we need 
to:
          --Establish pre-arranged office facilities with the necessary 
        infrastructure to enable short set-up time when Members, 
        Leadership, Committees, and their staffs are unable to access 
        their current facilities;
          --Broaden the responsibilities of the House Operations 
        Recovery Team (HORT) to include full continuity of operations 
        (COOP);
          --Create well defined, coordinated, integrated, and expanded 
        processes and procedures that are documented and regularly 
        exercised;
          --Have a continuous improvement process to capture and pursue 
        near-term, mid-term, and long-term business continuity and 
        disaster recovery enhancements;
          --Ensure that the enhancements and solutions are mobile as 
        much as possible to facilitate a flexible response capability; 
        and
          --Establish an off-site mail facility capable of handling 
        mail and packages from the U.S. Postal Service as well as other 
        shippers.
    <bullet> For communications, it was evident that we need:
          --Multiple methods of communications during and immediately 
        following an emergency event;
          --Communications solutions to include multiple means to reach 
        targeted people, and effective ways for those people to reach 
        out to others; and
          --And finally, testing of each solution against the goal of 
        providing Members, the Leadership, Committees, and their staffs 
        with communications ``anywhere, anytime.''
    <bullet> For technology, it was very evident we need to:
          --Create a system-wide, off-site redundancy with automatic 
        ``fail over'' capability to ensure that key systems and current 
        data are available anytime there is a failure at the house 
        campus; and
          --Ensure that the off-site capabilities are available to 
        Member offices to afford them protection when their system 
        fails or when they cannot access the system while they are 
        dislocated from their current offices.
            actions taken in response to the lessons learned
    Following September 11, the House identified 27 initiatives to 
address near-term, mid-term, and long-term business continuity and 
disaster recovery needs. Following up on immediate responses to the 
anthrax attack, a formal Business Continuity and Disaster Recovery (BC/
DR) Program Management Office (PMO) was established.
    Through the efforts of the CB/DR PMO, the initial 27 initiatives 
were restructured into 19 projects with specific goals and objectives 
that tie back to the lessons learned and their associated deficiencies 
in continuity of operations, communications, and technology. Further, 
the projects have a fully developed charter as well as an integrated 
budget and milestone schedule that focuses on delivery specific 
capabilities.
    Additionally, the PMO has implemented processes and tools to 
support regular status reporting on work progress against plan, status 
of resources against plan, issues and risks that pose a potential 
threat to the project, and decisions and issues that require management 
intervention to avoid project delays. Under the PMO, the projects 
continue to operate within the origin approved budgetary limits, and 
with the help of the PMO, project status and progress can be 
continually monitored.
    I'm pleased to report that substantial and specific capabilities 
have been added in the three identified solution areas:
    <bullet> Under continuity of operations, the following has been 
accomplished:
          --Emergency preparation guidelines have been distributed to 
        all offices, all emergency response personnel have been 
        identified, and HORT drills are being conducted and lessons 
        learned from each drill are being implemented;
          --Complete office space assignments for the Alternate House 
        Offices have been made, interim computer network and telephone 
        connectivity have been established, and notebook computers and 
        printers have been pre-configured and are pre-staged in storage 
        for immediate support;
          --A new automated call-out system has been implemented to 
        support the Child Care Center to ensure that staff and parents 
        are well informed on what is happening and what is expected;
          --Funding and staffing to support 24 hour-a-day, 7-day-a-week 
        operations have been approved and hiring actions are under way 
        in order to maintain and monitor critical House information 
        systems as well as support the Emergency Communications Center 
        (ECC); and
          --An off-site mail facility has been secured and built-out, 
        and a facility for processing packages is under construction.
    <bullet> Under communications, the following has been accomplished:
          --BlackBerries were distributed to all Members following 
        September 11;
          --The infrastructure requirements of the Member Briefing 
        Center are in place for video teleconferencing;
          --Government emergency telecommunications services (GETS) 
        accounts have been established and the cards have been 
        delivered to all Members;
          --BlackBerry system monitoring tools have been implemented to 
        proactively identify message delivery issues;
          --The Emergency Communication Center (ECC) has been 
        integrated with House Information Resources (HIR) operations. 
        Included in the ECC is a direct line to the U.S. Capitol Police 
        Command Headquarters as well as a BlackBerry Member emergency 
        notification capability and an automatic telephone dial out 
        emergency message notification capability for Members;
          --Notebook computers have been pre-configured and pre-staged 
        for support activation of an Emergency Response Center; and
          --And finally, the initial Member Paging System upgrade has 
        been completed to include installation of a primary and a back-
        up system.
    <bullet> Under technology, the following has been accomplished:
          --The House voice system and phone exchange and voice mail 
        system backup have been upgraded to reduce the threat of 
        failure;
          --Dial-in and broadband remote access services capacity has 
        been doubled;
          --An in-bound fax system pilot is under way to test the 
        viability of receiving and distributing faxes electronically as 
        a potential means of reducing paper mail;
          --Preparation for a digital mail pilot program is nearing 
        completion;
          --A diverse Internet connection has been implemented to 
        remove single points of failure;
          --We have been actively working with the Legislative Branch 
        Task Force on selecting an Alternative Computer Facility and 
        Alternate Business Center site;
          --The ability to run the Legislative Information Management 
        System (LIMS) and Staff Payroll systems at an interim alternate 
        site has been put in place;
          --A data backup and restore system was piloted and the 
        procedures were implemented to support multi-site backup;
          --An agreement was reached with another legislative branch 
        agency for data center space to support interim off-site data 
        storage; and
          --And finally, an architecture has been designed to implement 
        an automatic ``fail-over'' backup system to ensure continuity 
        of House operations.
              planned capabilities scheduled for delivery
    While considerable progress has been made to date, many additional 
business continuity and disaster recovery improvements are anticipated. 
Over the next year:
    <bullet> For continuity of operations, the plan is to:
          --Complete a Business Continuity/Disaster Recovery gap 
        analysis and propose steps to close the gaps and to integrate 
        and document all emergency response procedures to include 
        finalizing procedures with the U.S. Capitol Police on near-term 
        and long-term notification processes;
          --Finalize the House Relocation Plan for the Alternate House 
        Offices and complete installation and testing of computer and 
        telephone networks;
          --Extend hours for the HIR Call Center, Emergency 
        Communications Center, and Network Operations Center to 24 
        hours a day, 7 days a week; and
          --Complete the build-out of the off-site package delivery 
        facility.
    <bullet> For communications, the plan is to:
          --Complete the infrastructure for the Member Briefing Center 
        and establish secure video teleconference calling;
          --Procure and configure additional computer and office 
        equipment to support deployable Emergency Response Centers;
          --Finalize recommendations on procuring emergency 
        communications vans and private cellular services to help 
        overcome the access problems experienced with public cellular 
        and dial-up service;
          --Implement the second phase of the Member Paging upgrade to 
        provide additional redundancy and to extend the area of 
        coverage; and
          --Install a backup Voice Mail System (VMS) capability at the 
        Alternate Computer Facility.
    <bullet> For technology, the plan is to:
          --Change the voice switching architecture to remove single 
        points of failure and ensure a minimal level of service for a 
        building that suffers a failure;
          --Upgrade the Whip Phone System to provide automated 
        emergency notification capability;
          --Implement diverse on-campus data lines to remove all single 
        points of failure;
          --Implement direct data connections to Government Printing 
        Office, General Accounting Office, Library of Congress, and 
        alternate sites;
          --Implement the Alternate Computer Facility and Alternate 
        Business Center and conduct simulated outage tests; and
          --Complete the digital mail pilot and implement the approved 
        recommendations.
                              conclusions
    A well-documented set of lessons learned has helped shape the 
business continuity and disaster recovery program, and a viable plan 
for responding to the lessons learned has been developed--all thanks to 
the outstanding efforts of numerous individuals. Our program includes 
the management oversight and structure needed to ensure we will deliver 
cost- and performance-effective emergency response capabilities for the 
House. Significant progress has been made since the initial response to 
September 11 and later to the anthrax attack, and the approved budget 
is sufficient to carry out the remainder of the initiatives under the 
business continuity and disaster recovery program.
    Again, I want to thank all the Members of the Committee for your 
support and assistance over the last year and I look forward to 
continuing to work with you. Thank you for providing me with this 
opportunity to address the Committee.

    The Chairman. And we will move on to the Clerk of the 
House, Jeff Trandahl, who had his early days working with House 
Administration. I don't know if that is positive or negative.

    STATEMENT OF JEFF TRANDAHL, CLERK OF THE U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Trandahl. Very positive.
    Chairman Ney, Mr. Hoyer, and other distinguished members of 
the committee, I appreciate having this opportunity to provide 
the following testimony related to our preparedness activities 
following the terrorist attacks of September 11th and the 
anthrax emergency of October 2001.
    The events of September and October 2001 profoundly 
affected all Americans. For those of us who serve our Nation's 
lawmakers in the U.S. House of Representatives, the terrorist 
actions of 2001 directly challenged our ability to discharge 
our duties and caused us to confirm our resolve to defend and 
protect this beloved institution.
    Since much of the remainder of that year was focused on the 
events and aftermath of September 11th and the October anthrax 
crises, my statement would not be complete without such 
recognition. Clearly most of the operational activities and 
initiatives in which we were engaged are all well known to the 
Committee on House Administration and cannot properly be 
recounted in detail in this forum because the of the obvious 
security reasons.
    I would, however, like to take this opportunity to 
acknowledge and honor the dedication of my staff, compliment 
and thank my fellow officers of the House, and recognize the 
unfailing support of the Committee on House Administration and 
the bipartisan House leadership, along with the Architect of 
the Capitol and the U.S. Capitol Police. Since my first 
association with this office in 1995, and through my subsequent 
election as Clerk, I have been privileged to both work with and 
lead a most exceptional group of people. The extent of that 
individual and corporate character was clearly revealed in the 
days following September 11th and throughout the October 
anthrax crises. Working side by side for hours on end with 
talented staffs of the Sergeant at Arms, CAO, Architect, police 
and all of the employees of the House, we put aside many 
distractions of that period to focus on the complex work at 
hand. With the support and encouragement of this committee, we 
found innovative ways to share our talents and knowledge with 
one another to ensure the continued operations of the House.
    What then were the lessons learned from the events of last 
year? Particularly following the evacuation of the Capitol 
complex, we learned then that we could provide the 
infrastructure to accommodate the House floor proceedings at an 
off-site location if it had been required, and we were able to 
provide interim office operations to the many displaced Members 
and committees of the House. That ability was made possible 
owing to a planning protocol my fellow officers and I 
instituted a year earlier through the support and guidance of 
this committee. We had a plan, and we practiced it. We learned 
through those difficult events that our basic plan was sound. 
Unfortunately, it is real-world experience that is often the 
best guide and teacher.
    We learned what worked, we learned what did not and what 
more we needed to plan for. Now, one day short of the first 
anniversary of that terribly tragic day, I can report to you, 
Mr. Chairman, that we are very prepared to respond decisively 
and effectively should the operations of the House of 
Representatives be threatened again with serious disruption. 
Through the experience of those events and countless hours of 
planning and drilling, we can assure that the House can 
convene, meet, and conduct House business under a variety of 
scenarios. More importantly, the House of Representatives for 
the first time now has a core professional group dedicated to 
ensuring the continued operations of the House.
    Through legislation enacted earlier this year, the House 
Office of Emergency Planning, Preparedness and Operations was 
established to coordinate such continuity of operation 
requirements and better assist the House and the House officers 
in the planning and execution of their tasks in the event of an 
emergency. I appreciate the confidence this committee placed in 
me and my fellow officers to help lay the groundwork for the 
eventual establishment of this office.
    On behalf of the House, Bill Livingood, Jay Eagen and I 
vetted numerous candidates for the Director of this office, 
which resulted in the selection of Curt Coughlin, formerly of 
the Department of Energy. Since his appointment earlier this 
year, Curt has established a top-notch team of professionals 
who have already made significant contributions to our overall 
preparedness.
    Mr. Chairman, I know we all hope and pray that we will 
never again have to implement our emergency plan. If, however, 
we do, I can tell this committee now that the House of 
Representatives will not be prevented from conducting its 
business for the American people.
    I appreciate the attention of the Chairman and the 
committee and would be pleased to answer any questions.
    The Chairman. Appreciate the testimony of the Clerk.
    [The statement of Mr. Trandahl follows:]

          Statement of Hon. Jeff Trandahl, Clerk of the House

    Chairman Ney, Mr. Hoyer and other distinguished Members of the 
Committee, I appreciate having this opportunity to provide the 
following testimony related to our preparedness activities following 
the terrorist attacks of September 11 and the anthrax emergency of 
October 2001.
    The events of September and October 2001 profoundly affected all 
Americans. For those of us who serve our nation's lawmakers in the U.S. 
House of Representatives, the terrorist actions of 2001 directly 
challenged our ability to discharge our duties and caused us to confirm 
our resolve to defend and protect this beloved Institution.
    Since much of the remainder of that year was focused on the events 
and aftermath of September 11 and the October anthrax crisis, my 
statement would not be complete without such recognition. Clearly, most 
of the operational activities and initiatives in which we were engaged 
are well known to the Committee on House Administration and cannot 
properly be recounted in detail in this forum because of obvious 
security reasons.
    I would, however, like to take this opportunity to acknowledge and 
honor the dedication of my staff, compliment and thank my fellow 
officers of the House, and recognize the unfailing support of the 
Committee on House Administration and the bipartisan House Leadership. 
Since my first association with this Office in 1995 and through to my 
subsequent election as Clerk, I have been privileged to both work with 
and lead a most exceptional group of people. The extent of their 
individual and corporate character was clearly revealed in the days 
following September 11 and throughout the October anthrax crisis. 
Working side by side for hours on end with the talented staffs of the 
Sergeant at Arms and Chief Administrative Officer, all of our employees 
put aside the many distractions of that period to focus on the complex 
work at hand. With the support and encouragement of this Committee, we 
found innovative ways to share our talents and knowledge with one 
another to ensure the continued operations of the House.
    What then were the lessons learned from the events of last year? 
Particularly following the evacuation of the Capitol complex, we 
learned then that we could provide the infrastructure to accommodate 
the House floor proceedings at an off-site location if it had been 
required, and we were able to provide interim office operations to many 
displaced Members and Committees of the House. That ability was made 
possible owing to a planning protocol my fellow Officers and I 
instituted a year earlier through the support and guidance of this 
Committee. We had a plan and we had practiced it. We learned through 
those difficult events that our basic plan was sound. Unfortunately, 
it's real world experience that is often the best guide and teacher. We 
learned what worked, what did not, and what more we needed to plan for.
    Now, one day short of the first anniversary of that terrible, 
tragic day, I can report to you, Mr. Chairman, that we are very 
prepared to respond decisively and effectively should the operations of 
the House of Representatives be threatened again with serious 
disruption. Through the experience of those events and countless hours 
of planning and drilling, we can ensure the House of Representatives 
can convene, meet, and conduct the House's business under a variety of 
scenarios. More importantly, the House of Representatives for the first 
time now has a core professional group dedicated to ensuring the 
continuity of House operations. Through legislation enacted earlier 
this year, the House Office of Emergency Planning, Preparedness and 
Operations (OEPPO) was established to coordinate such continuity of 
operations requirements and better assist the House and the House 
Officers in the planning and execution of their tasks in the event of 
an emergency. I appreciate the confidence this Committee placed in me 
and my fellow officers to help lay the groundwork for the eventual 
establishment of this Office. On behalf of the House, Bill Livingood, 
Jay Eagen, and I vetted numerous candidates for the job of OEPPO 
director which resulted in the selection of Curt Coughlin, formerly of 
the Department of Energy. Since his appointment earlier this year, Curt 
has assembled a top-notch team of professionals who have already made a 
significant contribution to our overall preparedness.
    Mr. Chairman, I know we all hope and pray that we will never have 
to again implement our emergency plans. If, however, we do, I can tell 
this Committee now that the House of Representatives will not be 
prevented from conducting the business of the American people.
    I appreciate your attention Mr. Chairman, and would be pleased to 
answer any questions of the Committee.

    The Chairman. And now we will move on to our Architect of 
the Capitol, Alan Hantman.

  STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you.
    Good afternoon, Chairman Ney, Congressman Hoyer, 
Congressman Ehlers and members of the committee. I want to 
thank you for giving me the opportunity to join with the House 
officers, and with Chief Howe to come before your committee to 
share with you some of significant efforts that have been made 
since September 11th in the areas of security and emergency 
preparedness.
    It is really hard to believe that virtually a full year has 
passed since the tragic events of September 11th. Those events, 
that were followed by the anthrax contamination in October, 
certainly were compounded to change our lives forever.
    Since then security and emergency preparedness certainly 
became even higher priorities in the work of my office. In line 
with some of the comments that Congressman Hoyer and 
Congressman Ehlers made earlier, hundreds of employees worked 
around the clock to make sure that we worked through any 
recovered from that time.
    The remediation and the evaluation of the anthrax 
contamination in Longworth and Ford took hundreds and hundreds 
of hours, as well as the Hart Senate Office Building. People 
worked around the clock, 7 days a week. Among some of the 
things that the AOC personnel were involved with was 
establishing the command center at the Botanic Gardens. This 
was virtually the only building that had not received mail on 
Capitol Hill, and therefore it was clean for the command 
center; manned the Incident Command Center at the D Street 
operations; provided keys, access information, escorts, 
building floor plans, ventilation system information; and 
assisted in the development of anthrax sampling plans with 
NIOSH. We also supplied logistical support such as food, office 
supplies, equipment, whatever else was needed to support the 
Environmental Protection Agency in their efforts here as well.
    Among the small lessons learned, a lot of our building 
plans were locked up in the Ford House Office Building, which 
was contaminated. So we now have multiple sets of plans at 
various locations so that we can have access to them in the 
event of an emergency at any particular location.
    Also over the last year, as any Member can see as they come 
to vote at the Capitol, we have made tremendous progress on the 
Capitol Square perimeter security program, which, as you know, 
was started before September 11th. The Southwest Drive has been 
completed and reopened. Work on the Southwest Drive began in 
May, and it reopened yesterday. While the south entrance is 
still under construction, the structural components are in 
place, and we are waiting to install the finished stonework in 
a manner that will not disrupt congressional operations.
    The Library of Congress perimeter security improvements for 
the Thomas Jefferson and James Madison Memorial Buildings are 
under construction. The installation of the vehicle barriers as 
part of our outer perimeter on Independence Avenue near First 
Street SW and near Second Street SE is under way and is very 
close to completion now.
    You are also, of course, very well aware of the 
construction of the Capitol Visitors Center, although the CVC 
is not a direct result of 9/11, it was being planned well 
before that day. The visitors center will add significant 
additional security to the complex by screening visitors a 
distance away from the building.
    As you all know, we have already constructed temporary 
screening facilities outside of the north and south entrances 
to the Capitol as a threat reduction measure. In addition, the 
CVC will greatly improve the ability of the Capitol Police and 
the Capitol Guide Service to regulate and to respectfully 
manage the large flow of visitors to the Capitol, which will 
improve both security and safety for all. Further, the CVC also 
will facilitate evacuation out of the Capitol Building if 
necessary.
    However, Mr. Chairman, there are many things that are not 
quite as visible as the Capitol Visitors Center or the 
perimeter security projects. I would like to just list a few of 
them for the committee now. Emergency evacuation brochures were 
redesigned in conjunction with the security task force to 
better have evacuation instructions and diagrams for all. They 
were printed by GPO and distributed by the Capitol Police. And 
there have been training sessions on building evacuation 
procedures and two drills as well since then.
    In the Capitol we added the capabilities of a public 
address system for voice notification during any emergency 
evacuations, and the House office building systems already 
existed but were tested. We are doing a study to identify 
design and construction costs to further upgrade it.
    We have purchased and installed replacements for both 
antiquated emergency generators, which were over 50 years old. 
They now have new state-of-the-art generators for better 
reliability during emergencies. A portable emergency generator 
was also purchased to provide emergency power on an as-needed 
basis. We have also purchased high-efficiency particulate air 
filter vacuums, HEPA vacuums, for our cleaning staff.
    My organization has also been an active participant in 
numerous HORT, which is House Office Recovery Team, drills to 
support planning for responses to emergency relocations of the 
House Chamber or other facilities.
    Continued assistance to the Capitol Police in security 
upgrades throughout the complex has also been provided for 
installation of permanent police podiums at building entrances, 
tunnels to the Capitol; installation of infrastructure for the 
interior access control systems, other security systems; 
buildig perimeter alarm installations; security camera 
installations. All of these issues have been addressed as well 
as the shatter-resistant window film that has been installed in 
all of our buildings.
    As the committee can see, Mr. Chairman, my office, in 
conjunction with all of the witnesses sitting before you today, 
has made significant advances since September 11th. I can't say 
enough about the work of all of these folks and of the staff 
that I have the honor to lead. They have accomplished all of 
these things while continuing to maintain their normal day-to-
day operations that existed before 9/11. And we still have a 
lot of work to do, including continuing to secure the Capitol 
Hill perimeter in a sensitive and respectful way, to continue 
our master planning efforts regarding parking and other issues 
that we can talk about later as well.
    A lot of work remains to be done, but I am confident that 
we will continue to work cooperatively, with pride and with 
diligence, towards achieving these goals.
    I look forward to a further discussion on these and other 
subjects. Thank you, Mr. Chairman.
    The Chairman. Thank the Architect of the Capitol for your 
statement.
    [The statement of Mr. Hantman follows:]

      Statement of Alan M. Hantman, FAIA, Architect of the Capitol

    Good afternoon Chairman Ney, Congressman Hoyer and the members of 
the Committee. I want to thank you for giving me the opportunity to 
come before your Committee to share with you some of the significant 
efforts that my office has made since September 11, in the areas of 
security and emergency preparedness.
    It is hard to believe that it has already been one year since the 
tragic events of September 11. Those events along with the Anthrax 
contamination in October have changed our lives forever. Security and 
Emergency Preparedness became even higher priorities in the work of my 
office.
    In October, hundreds of AOC employees contributed countless hours 
in support of anthrax evaluation and remediation in the Longworth and 
Ford House Office Buildings as well as in the Hart Senate Office 
Building. Working around the clock, seven days a week, AOC personnel 
support included: establishing the Command Center at the Botanic 
Garden, manning the Incident Command Center and the D Street Operations 
Center, providing keys, access information, escorts, building floor 
plans, ventilation system information, equipment location and operation 
information, and assisted in the development of sampling plans in 
conjunction with NIOSH. My staff also provided logistical support such 
as food, office supplies, and equipment. AOC provided people to do 
whatever was needed to support the EPA led effort.
    Also, over the last year, as any Member can see as they walk to a 
vote, we have made tremendous progress on the Capitol Square perimeter 
security. The SW Drive has been completed and re-opened. Work on the SE 
Drive began in May and re-opened yesterday. While the South entrance is 
still under construction, the structural components are in place and we 
are waiting to install the finished work in a manner that will not 
disrupt Congressional business. The Library of Congress perimeter 
security improvements for the Thomas Jefferson and James Madison 
Memorial Buildings are under construction, and the installation of the 
vehicle barriers as part of the outer perimeter on Independence Avenue 
near First St, SW and near Second St, SE is underway and is very close 
to completion.
    You also of course, are well aware that the construction on the 
Capitol Visitors Center has begun. Although the CVC is not a result of 
9/11, it was being planned well before that day, the Visitors Center 
will add security measures to the complex by screening visitors a 
distance away from the building. As you all know we have already 
constructed a temporary screening facilities outside the North and 
South entrances to the Capitol as a threat reduction measure. In 
addition, the CVC will greatly improve the ability of the Capitol 
Police and the Capitol Guide Service to regulate and respectfully 
manage the large flow of visitors to the Capitol, which will improve 
both security and safety. Further, the CVC also will facilitate 
evacuation out of the Capitol Building if necessary.
    However Mr. Chairman, there are many things that are not quite as 
visible as the CVC or Perimeter Security that my staff and I have been 
working on to make it safer for Members, staff, and visitors to our 
buildings and I would like to list some of them for you and the 
Committee now.
    1. Emergency evacuation brochures were redesigned in conjunction 
with the Security Task Team to provide better evacuation instructions 
and diagrams. They were printed by GPO and distributed to building 
occupants by the USCP. Since then there have been training sessions on 
building evacuation procedures and two drills have been conducted.
    2. In the Capitol we added the capabilities of a Public Address 
(PA) system for voice notification during any emergency evacuations. In 
the House Office Buildings, systems already existed, but were tested.
    3. We have purchased and installed replacements for both antiquated 
(over 50 years old) emergency generators with new state-of-the-art 
generators for better reliability during emergencies. Also, a portable 
emergency generator was purchased by the Electrical Engineering Branch 
to provide emergency power on an as needed basis.
    4. We have purchased High Efficiency Particulate Air Filter (HEPA) 
vacuums for cleaning staff.
    5. My organization has been an active participant in numerous HORT 
(House Office Recovery Team) drills to support planning for responses 
to emergency relocation of the House Chamber or other facilities.
    6. We have provided continued assistance to the USCP in security 
upgrades throughout the complex such as installation of permanent 
police podiums at building entrances and tunnels to the Capitol, 
installation of infrastructure for the interior access control system 
and other security systems, building perimeter alarm installations, 
security camera installations and in positioning temporary hydraulic 
barricades where necessary.
    As the Committee can see Mr. Chairman, my office in conjunction 
with all the witnesses sitting before you today, has made significant 
advances since September 11. I can not say enough about the work by my 
staff. They have accomplished all these things, while continuing to 
maintain their normal day to day operations that existed before 9/11. 
We still have much work to do, but I am confident that my staff will 
continue to work with pride and diligence towards achieving those 
goals. I look forward to sharing more information with the Committee 
during the closed session, and thank you for this opportunity to come 
before you.

    The Chairman. And we have Kerri Hanley, Deputy Sergeant at 
Arms, is here. Mr. Livingood has arrived. The Sergeant at Arms 
is here.
    I should also note that Terry is a new mom. We congratulate 
you on that.
    We will move on now with Mr. Livingood, our Sergeant at 
Arms. Bill.

STATEMENT OF WILSON LIVINGOOD, SERGEANT AT ARMS, U.S. HOUSE OF 
                        REPRESENTATIVES

    Mr. Livingood. Mr. Chairman, Ranking Member, Members, I am 
pleased to appear before you today to discuss the enhancements 
that have been made to security within the Capitol complex 
following the terrorist attack of September 11th, 2001.
    No single event has impacted security of the Capitol and 
the House and office buildings more than the events of 
September 11th. We have been challenged many times in the past: 
the bombings that occurred in the Capitol in 1915, 1971, and 
1983; the shootings that occurred in 1954 and 1998; and the 
bioterrorism attack that occurred in October of 2001. All had 
lasting effects on the level of security needed to protect the 
legislative branch of the government. Likewise, terrorist 
events that occur outside the Capitol complex also cause us to 
review our security posture and apply lessons learned so that 
we may deter similar attacks at the Capitol.
    It is clear from our history that the Capitol is a tempting 
target for terrorists and those who seek to disrupt the 
legislative process or strike a symbolic blow against the 
United States. We have long believed that the ultimate 
destination of Flight 93, whose heroic passengers, and I say 
heroic passengers, forced down in Shanksville, Pennsylvania, 
that plane, the destination we feel was the United States 
Capitol, and recent reports are supporting that premise. We do 
know that the terrorists who hijacked the plane asked for 
clearance into Reagan National Airport. We also know that 
terrorists choose targets based on certain criteria, such as 
symbolism, mass casualties, and high likelihood of success.
    It is our responsibility to take every reasonable and 
prudent precaution that we can to remove the terrorists' 
likelihood of success with regard to the Capitol, the House and 
Senate office buildings, and those that work and visit within 
the Capitol complex. To that end, immediately following the 
September attacks, the United States Capitol Police Board 
directed that a comprehensive security survey of the Capitol 
complex be conducted by the Defense Threat Reduction Agency, 
DTRA.
    The resulting DTRA report, combined with the earlier U.S. 
Capitol/U.S. Secret Service and other security and law 
enforcement agencies in this country security survey, provided 
us with a road map to enhance security and address 
vulnerabilities.
    We did that, and have been doing it all along. The 
following security enhancements have been made in the aftermath 
of the September 11, 2001 attacks: We have amended traffic 
regulations for the Capitol complex; rerouted trucks around the 
Capitol complex; installed additional vehicular barriers around 
Capitol Square and the House office buildings; closed streets 
around the House office buildings; denied pedestrian access to 
our building office garages; continued our Critical Incident 
Command Group evacuations for the year, which consisted of a 
minimum of three drills per building. The evacuation drills 
were both announced and unannounced; updated the Capitol and 
House office building emergency preparedness plan.
    We have conducted tabletop exercises on evacuation of the 
buildings and Chamber. We developed new and additional 
evacuation plans. We developed new and additional evacuation 
plans. We have developed and are implementing fire drills on a 
regularly scheduled and unscheduled basis.
    We restricted bicycle traffic on Capitol Square. We have 
examined the needs and recommended what to have in safe kits 
and use of escape masks. We have procured additional escape 
masks. We have trained over 6,000 House Members and staff on 
the escape masks. We developed and implemented new mail 
screening procedures with the Chief Administrative Officer.
    We have developed new guidelines for tours of the Capitol. 
We have also increased the size of tour groups, after we had 
stopped tours while still maintaining security, and good 
security. We have developed guidelines for staff-led tours.
    We have deployed blocking vehicles and devices around the 
Capitol Square and the House office buildings. We have 
replaced--all of the inadequate concrete planters that were 
around Capitol Square and were cracking--with the Architect.
    We have utilized the D.C. National Guard for supplemental 
security staffing. We have staffed the Critical Incident 
Command Center for 6 months after the anthrax attack. We have 
developed and implemented a tactical training program. We now 
have, thanks to the Congress of the United States, a training 
academy and facility at Cheltenham, Maryland, which for the 
Capitol Police will be operational this October 1st and will 
accommodate all police recruit academy training, as well as 
Capitol Police in-serve training programs for Capitol Police 
employees. In addition, we plan on having tactical training at 
that location. Cheltenham will have three full-sized 
classrooms, one 54-person auditorium-style classroom, and two 
24-person classrooms. The facility will House the staff offices 
of the Training Services Bureau of the Capitol Police, a 
fitness center for the students and officers, a defensive 
tactics mat room and a computer lab.
    We have designed an initial security plan for the Capitol 
Visitors Center. We have developed a construction security 
program and security system for the CVC construction site that 
is ongoing now.
    Since 9/11 we have hired approximately 210 officers, which 
Chief Howe will talk to. An additional 14 are scheduled for 
appointment in September. While we have made significant 
physical and operational improvements, as we all know, the 
backbone of our security is the men and women of the United 
States Capitol Police. Nothing in the history of Congress has 
challenged our police personnel more than the September 11th 
attacks and the subsequent anthrax attack. Security was raised 
to an unprecedented level in order to protect the Capitol, the 
Congress, and the national legislative process. Our personnel 
were required to work additional duty hours for an extended 
period of time under stressful conditions. They, the Capitol 
Police officers, put their personal lives on hold in order to 
meet their professional responsibilities. They proved once 
again that they are the thin blue line which protects us all 
from harm and allows the Capitol to function in a safe and 
secure environment. I thank them personally, and for all of us, 
for their dedication, service, and sacrifice. I am proud to be 
associated with such a fine group of men and women, and I am 
honored to serve you, and to serve with them.
    Thank you for the opportunity appear before you today, and 
I thank you for all of your help and assistance to this 
complex, to the Capitol, to my office, to the Capitol Police. 
You made all of our work possible. And I thank each and every 
one of you for that.
    I will be happy to answer questions at any time.
    The Chairman. I want to thank the Sergeant at Arms for his 
testimony.
    [The statement of Mr. Livingood follows:]

  Testimony of Hon. Wilson Livingood, Sergeant at Arms, U.S. House of 
                            Representatives

    Mr. Chairman, I am pleased to appear before you today to discuss 
the enhancements that have been made to the security within the Capitol 
Complex following the terrorists attacks of September 11, 2001.
    No single event has impacted security of the Capitol and the House 
and Senate office buildings more than the events of September 11th. We 
have been challenged many times in the past. The bombings of the 
Capitol that occurred in 1915, 1971, and 1983, the shooting that 
occurred in 1954 and 1998, and the bio-terrorism attack that occurred 
in October 2001, all had lasting effects on the level of security 
needed to protect the Legislative Branch of the government. Likewise, 
terrorist events that occur outside the Capitol Complex also cause us 
to review our security posture and apply lessons learned so that we may 
deter similar attacks at the Capitol.
    It is clear from our history that the Capitol is a tempting target 
for terrorists and those who seek to disrupt the national legislative 
process or strike a symbolic blow against the United States. We have 
long believed that the ultimate destination of United Flight 93, which 
heroic passengers forced down in Shanksville, Pennsylvania, was the 
United States Capitol and recent reports are supporting that premise. 
We do know that the terrorists who hijacked the plane asked for 
clearance into Reagan Washington National Airport. We also know that 
terrorists choose targets based on certain criteria: such as symbolism, 
mass casualty, and the high likelihood of success. It is our 
responsibility to take every reasonable and prudent precaution that we 
can to remove the terrorists likelihood of success with regard to the 
Capitol, the House and Senate office buildings, and those that work and 
visit within the Capitol Complex.
    To that end, immediately following the September attacks, the 
United States Capitol Police Board directed that a comprehensive 
security survey of the Capitol Complex be conducted by the Defense 
Threat Reduction Agency (DTRA). The resulting DTRA report, combined 
with the earlier U.S. Capitol Police/U.S. Secret Service security 
survey, provided us with a road map to enhance security and address 
vulnerabilities. The following security enhancements have been made in 
the aftermath of the September 11, 2001 attacks:
    <bullet> Amended the traffic regulations for the Capitol Complex.
    <bullet> Rerouted trucks around the Capitol Complex.
    <bullet> Installed additional vehicular barriers around Capitol 
Square and the House Office Buildings.
    <bullet> Street closings around the House Office Buildings: 1st 
Street SE, C Street SE, New Jersey Avenue SE, South Capitol Street SE, 
and 1st Street SW.
    <bullet> Denied pedestrian access to the office building garages.
    <bullet> Continued our Critical Incident Command Group Evacuations 
for the year which consisted of a minimum of three drills per building. 
The evacuations drills were both announced and unannounced.
    <bullet> Completed numerous walk thru's for Chamber Relocation to 
the Member Briefing Centers.
    <bullet> Updated the Capital and House Office Buildings Emergency 
Preparedness Plans.
    <bullet> Conducted Tabletop Exercises on Evacuation of the 
Buildings and Chamber.
    <bullet> Developed new evacuation plan.
    <bullet> Developed and are implementing fire drills on a scheduled 
basis.
    <bullet> Restricted bicycle traffic on Capitol Square.
    <bullet> Examined all safe kits and escape masks.
    <bullet> Procured an additional 25,000 escape masks.
    <bullet> Trained 6,410 House Members and Staff on the escape masks.
    <bullet> Developed and implemented new mail screening procedures.
    <bullet> Developed new guidelines for tours of the Capitol.
    <bullet> Increased the size of tour groups while maintaining 
security.
    <bullet> Developed guidelines for staff-led tours.
    <bullet> Deployment of blocking vehicles around Capitol Squares and 
the House Office Buildings.
    <bullet> Replaced inadequate concrete planters that were cracking 
around Capitol Square.
    <bullet> Utilized the D.C. National Guard for supplemental security 
staffing.
    <bullet> Staffed the Critical Incident Command Center for six 
months for the Anthrax Attack.
    <bullet> Developed and implemented a tactical training program.
    <bullet> Cheltenham will be operational by October 1, 2002, and 
will accommodate all USCP Recruit Academy Training, as well as in-
service training programs for USCP employees.
    <bullet> Cheltenham will have three full-size classrooms (1 54-
person auditorium-style classroom and 2 24-person classrooms), the 
facility will house the staff offices of the Training Services Bureau, 
a fitness center, a defensive tactics mat room, and a computer lab.
    <bullet> Designed an initial security plan for the Capitol Visitor 
Center (CVC).
    <bullet> Developed a construction security program and security 
system for the CVC Construction Site.
    <bullet> Since 9/11 we have hired 210 Officers, an additional 14 
are scheduled for appointment in September.
    While we have made significant physical and operational 
improvements, as we all know, the backbone of our security is the men 
and women of the United States Capitol Police. Nothing in the history 
of Congress has challenged our police personnel more than the September 
11th attacks and the subsequent anthrax attack. Security was raised to 
an unprecedented level in order to protect the Capitol, the Congress, 
and the national legislative process. Our personnel were required to 
work additional duty hours for an extended period of time under arduous 
conditions. They put their personal lives on hold in order to meet 
their professional responsibilities. They proved, once again, that they 
are the thin blue line which protects us from harm and allows the 
Congress to function in a safe and secure environment. I thank them for 
their dedication, service, and sacrifice. I am proud to be associated 
with such a fine group of men and women.
    Thank you for the opportunity to appear before you this afternoon. 
I will be happy to answer any questions that you may have.

    The Chairman. I also would point out that we have been 
joined by Congressmen Fattah and Doolittle, two tremendous 
members of this committee, who along with their staffs have 
made this past difficult year a working good relationship. We 
appreciate both of you for that.
    We will move on to the last witness. If either gentleman 
has a statement, we will entertain it at that time. We have now 
Robert Howe, the Assistant Chief of Police, United States 
Capitol Police.

  STATEMENT OF ROBERT HOWE, ASSISTANT CHIEF OF POLICE, UNITED 
                     STATES CAPITOL POLICE

    Mr. Howe. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the committee, I am pleased to 
appear before you today to discuss the impact the terrorist 
attacks on September 11th had on operational personnel of the 
U.S. Capitol Police.
    On September 11th, 2001, the United States Capitol Police 
evacuated the Capitol and all of the House and Senate office 
buildings simultaneously for the first time in history. From 
that point forward, the Department was placed at the highest 
level of alert.
    The response required to protect the Capitol, the Congress, 
those who work and visit within the Capitol complex in the 
legislative process in the wake of the attacks placed a strain 
on all of our personnel. All of our officers and civilian 
support personnel worked extended duty hours and made personal 
sacrifices in order to meet the challenges before us.
    Officers were working 12- to 16-hour tours of duty with no 
or few off days. Leave was suspended, and many officers 
canceled their scheduled vacations. This level of effort 
continued through the anthrax attacks and into April of 2002.
    Under extremely difficult circumstances, our personnel once 
again answered the call to duty and took extraordinary efforts 
to protect our community. They do this day in and day out with 
the knowledge that protecting Congress, its staff, visitors, 
and these buildings against those who are intent on committing 
acts of violence is in the interest of our Nation.
    However, the attacks of 9/11 and subsequent anthrax attacks 
underscored the fact that the United States Capitol Police is 
understaffed, given the importance and diversity of our 
mission. Securing the Capitol complex and ensuring that the 
national legislative process can proceed unhindered is a 
daunting task. It is also very labor-intensive.
    Following 9/11, we conducted an extensive review of our 
staffing requirements. We determined that in order to meet all 
of our responsibilities and allow for the required training of 
our personnel, an optimum staffing level of 1,981 officers was 
required. This figure is a goal we hope to reach by fiscal year 
2004. It should be noted that we are losing officers to other 
agencies at an increasing rate. Likewise, we are competing 
against those same agencies to attract qualified applicants in 
order to increase our staffing level and overcome attrition. 
Attrition, primarily driven by losses to the Transportation 
Security Administration and other law enforcement agencies, is 
expected to continue at a high rate for the near term. The 
Department is projecting a fiscal year 2003 attrition rate of 
approximately 12.5 percent, and a fiscal year 2004 attrition 
rate of approximately 7\1/2\ percent.
    We have set aggressive recruiting goals over the next 2 
years. I am confident that the recent pay adjustments supported 
by this committee, combined with recruiting and retention 
incentives, will help us to remain competitive in the market 
and allow us to attract and retain highly qualified personnel.
    The current staffing level has also had a detrimental 
effect on our training initiatives. The capability of any 
organization is dependent on the level of training, knowledge 
and skill of its personnel. This is why we have made training a 
priority in the coming year, especially in light of September 
11th and the October 15th attacks.
    Our personnel at all levels must receive intensive, 
realistic and demanding training that supports our mission. 
Because we have public safety responsibilities, we must ensure 
our sworn and civilian personnel are capable of performing 
their duties at peak effectiveness. The training facility at 
the Federal Law Enforcement Training Center in Cheltenham, 
Maryland, will significantly improve our training and education 
program. We will be able to conduct all of our training 
functions, including counterassault, emergency vehicle 
operations, firearms and general classroom instructions at that 
state-of-the-art facility.
    Moreover, as we increase our staffing levels, we will be 
able to pull officers off the line to receive the level of 
training required to operate in this new threat environment.
    I want to thank the committee for the support and guidance 
you have provided to the United States Capitol Police, 
especially over the past year. We have met and discussed the 
concerns of the committees of jurisdiction regarding how to 
best protect against the varied threats and security concerns 
we face. We will continue to build upon those initiatives we 
have begun concerning risk management, security and law 
enforcement.
    Thank you, Mr. Chairman. I would be happy to answer any 
question you may have.
    The Chairman. Thank you, Chief Howe, and also thank you, 
the management, and also the rank-and-file of the Capitol 
Police.
    [The statement of Mr. Howe follows:]

  Testimony of Assistant Chief Robert R. Howe, United States Capitol 
                                 Police

    Mr. Chairman and members of the Committee, I am pleased to appear 
before you today to discuss the impact the terrorist attacks of 
September 11, 2001, had on the operations and personnel of the United 
States Capitol Police.
    On September 11, 2001, the United States Capitol Police evacuated 
the Capitol and all of the House and Senate Office Buildings. This was 
the first time in our history that an event had necessitated all of our 
buildings be evacuated simultaneously. From that point forward, the 
Department was placed at our highest level of alert.
    The response required to protect the Capitol, the Congress, those 
who work and visit within the Capitol Complex, and the Legislative 
process in the wake of the attacks placed a strain on our personnel. 
All of our officers and civilian support personnel worked extended duty 
hours and made personal sacrifices in order to meet the challenges 
before us. Officers were working twelve to sixteen hour tours of duty 
with no or few days off. Leave was suspended and many officers canceled 
their scheduled vacations. This level of effort continued through the 
anthrax attack and into April 2002. Under extremely difficult 
circumstances, our personnel once again answered the call to duty and 
took extraordinary efforts to protect our community. They do this day 
in and day out with the knowledge that protecting Congress, its staff, 
visitors, and these buildings against those who are intent on 
committing acts of violence is in the interest of our nation.
    However, the attacks of 9/11 and the subsequent anthrax attack 
underscored the fact that the United States Capitol Police is 
understaffed given the importance and diversity of our mission. 
Securing the Capitol Complex and ensuring the national legislative 
process can proceed unhindered is a daunting task. It is also labor 
intensive. Following 9/11, we conducted an extensive review of our 
staffing requirements. We determined that in order to meet all of our 
responsibilities and allow for required training of our personnel, the 
optimum staffing level was 1,981 FTEs. That figure is a goal we hope to 
reach by FY04.
    It should be noted that we are losing officers to other agencies at 
an increasing rate. Likewise, we are competing against those same 
agencies to attract qualified applicants in order to increase our 
staffing level and overcome attrition. Attrition, primarily driven by 
losses to the Transportation Security Administration and other law 
enforcement agencies, is expected to continue at a high rate. The 
Department is projecting an FY03 attrition rate of 12.5 percent and an 
FY04 rate of 7.5 percent. We have set aggressive recruiting goals over 
the next two years. I am confident that the recent pay adjustments 
combined with recruiting and retention incentives will help us remain 
competitive in the market and allow us to attract and retain highly-
qualified personnel.
    The current staffing level has also had a detrimental affect on our 
training initiatives. The capability of any organization is dependent 
upon the level of training, knowledge, and skills of its personnel. 
That is why we have made training a priority in the coming year, 
especially in light of the September 11th and October 15th attacks. Our 
personnel, at all levels, must receive intensive, realistic, and 
demanding training that supports our mission. Because we have public 
safety responsibilities, we must ensure our sworn and civilian 
personnel are capable of performing their duties at peak effectiveness. 
The training facility at the Federal Law Enforcement Training Center in 
Cheltenham, Maryland, will significantly improve our training and 
education program. We will be able to conduct all of our training 
functions including counter-assault, emergency vehicle operations, 
firearms, and general classroom instruction at that state-of-the-art 
facility. Moreover, as we increase our staffing levels, we will have 
the ability to pull officers off-line to receive the level of training 
required to operate in this new threat environment.
    I want to thank the Committee for the support and guidance you have 
provided to the United States Capitol Police, especially over the past 
year. We have met with and discussed the concerns of the committees of 
jurisdiction regarding how best to protect against the varied threats 
and security concerns we face. We will continue to build upon our 
initiatives concerning risk management, security, and law enforcement.

    The Chairman. With that, I would entertain if Mr. Doolittle 
has a statement.
    Mr. Doolittle. I have no statement, Mr. Chairman, except to 
thank the officers and officials before us for the outstanding 
service.
    Mr. Fattah. I have no statement at this time. I join in my 
colleague's statement.
    The Chairman. And with that we will open up to questions. I 
yield my question time to Mr. Hoyer.
    Mr. Hoyer. Mr. Eagen, as I understand it, you have notebook 
computers stored and preconfigured for use in the event of 
another anthrax attack, where members could be out of their 
offices, not have access to their computers. What is the plan 
for maintaining the current equipment and how will you replace 
this equipment and what will happen to the old equipment?
    Mr. Eagen. We have a phasing plan, where at different 
periods of time on a 3- to 5-year schedule, we will take PCs 
and cycle them out. In those cases where we can put them into 
House inventory, whether within the officers' structures or 
into Members' offices, we will do so.
    Mr. Hoyer. So for the most part we will have an inventory 
that is fairly up to date?
    Mr. Eagen. That is the objective, yes.
    Mr. Hoyer. Now, BlackBerries, as all of us know, are the 
preferred mode of communicating with Members in the event of an 
emergency, and I might say right now the chairman refers to--I 
don't want to bring levity into a hearing that is very serious, 
but the chairman refers to his BlackBerry as CrackBerry, 
because he is addicted to it. I see the chairman with his 
BlackBerry all the time, and he obviously has found it useful, 
but the chairman's initiative, which I obviously supported 
strongly, but Members have found that to be extraordinarily 
helpful. And in light of what happened on September 11th where 
Members felt disconnected, they went out on the street, they 
didn't know where to go, their staffs didn't know where to go, 
everybody was disconnected, and Members of course felt a 
responsibility to be ready to respond to whatever the emergency 
required, but they felt out of touch.
    The BlackBerries, which the chairman and this committee 
provided to Members without cost of their Members' 
representational allowance, have proved very, very helpful. The 
question is this: With the end of the service contract arriving 
for BlackBerry in October, what is your plans for the renewal 
of service for the Members' distributed units?
    Mr. Eagen. The original commitment for the program had been 
that it would be a 1-year House-funded undertaking, but with 
the popularity and the success that has been accompanying their 
deplayment, as you recognized, we are looking at finding the 
funds to fund it for a second year, to continue the program as 
an enterprise undertaking.
    Mr. Hoyer. Great. I think that is an institutional 
responsibility and critical for the institution to function in 
the times of an emergency.
    Mr. Eagen. I think just to add on to that, I think we would 
during the next year also start to look at the next generation 
of successors. We had an opportunity to have a demonstration of 
a new technology called Tablet PC that is coming down the line 
this fall, and if people were impressed with BlackBerries their 
socks are going to be knocked off when they see this particular 
undertaking. So I think to use the next year as an opportunity 
both for normal business purposes and in an emergency, it will 
be a good time for us to evaluate what is the next generation 
for the House.
    Mr. Hoyer. If it is more riveting than the BlackBerry, 
perhaps we can keep it away from the chairman.
    One last question--I have got a lot of questions, but this 
is the last question I will ask on this round. The House has a 
system called Dialogic which will automatically call designated 
numbers during an emergency and broadcast a recorded message. 
The Chief Administrative Officer has not developed a plan, 
however, as I understand it, for calling Members on cell phones 
or home phones. What is the strategy to get that going?
    Mr. Eagen. Actually, no. The Dialogic system is a system 
that is being installed right now as a replacement for the 
current whip system. The whip system is probably about 10 to 15 
years old. We did a survey of Members' offices to find out the 
usage and found out that it was fairly weak on both sides of 
the aisle and proposed and have had funded a replacement called 
the Dialogic. The Dialogic that exists today is actually under 
the Capitol Police control, but relatively speaking, it is a 
very small system. The Dialogic that the House has acquired has 
the ability to simultaneously dial 644 telephone calls at the 
same time, and it has the memory capability to recognize 
multiple contact numbers for Members or others that are put on 
the list.
    And the way the system works is it starts with the first 
number and goes to the second until it gets a positive 
solution. So when I talked about in our lessons learned that we 
needed to have multiple means of communication, what I meant by 
that was we need to have ways where we can reach you because 
you are carrying a device like a BlackBerry or your pager or 
alternatively call you somehow or alternatively have a way 
where you can reach us via the telephone system like the GETS 
card. So the Dialogic is one of those range of solutions, and 
it does have the capability to dial multiple numbers.
    Mr. Hoyer. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. I would note on these 
BlackBerries, we want to thank Mr. Eagen. We usurped his budget 
with his permission to pay for it. My wife is personally happy 
they don't work in St. Clairsville, where we live. And the 
reason I am so sold on them, Mr. Hoyer, is it is the only thing 
they have ever been able to teach me to run technologically in 
the last 8 years.
    We have joined also by Mr. Mica. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Continuing on the 
BlackBerry issue, there is one problem with it, and the 
chairman just alluded to that. We have great difficulty 
receiving messages in our home districts, and I hope you will 
investigate ways of handling that problem in some way.
    Also one comment that it takes a lot to knock my socks off, 
and I don't think the Tablet PDA will do it. What would 
probably come close to it, however, is something that is in the 
pipeline, and I don't know when it will get here, but I hope we 
can implement that, which basically combines the BlackBerry, in 
other words, an e-mail facility, paging and cell phone, and 
that would be marvelous since right now I am carrying three 
pieces of electronics on my belt. I feel like a police officer 
walking around with all that equipment hanging on.
    We will either have to come up with something that is 
combined, or you are going to have to requisition stronger 
belts to be able to carry all this. So I hope you will keep on 
top of that and--but the BlackBerry reception away from 
Washington is a real problem, and I miss a lot of notices as a 
result of that.
    The other issue of communications which still bothers me 
tremendously, and that has nothing to do with emergency 
communications, but it has a great deal to do with the ongoing 
operation of the Congress, and that is mail. We still have not 
solved our mail problems. I know that is--much of that is out 
of your control, but steadily improving, but it still leaves 
much to be desired. And it is very frustrating to receive 
invitations to meetings after the meeting is over. And that is 
just one example. So I hope we collectively can work on that 
problem, come up with some solutions, too.
    Mr. Chairman, I would also like to question some of the 
other members. Mr. Livingood, most of your testimony you 
discuss changes made to the security involving the Capitol 
Police. I didn't catch anything that you had done involving 
your specific responsibilities that only you have, and that is 
your Sergeant at Arms employees. Could you give a brief review?
    Mr. Livingood. I will be glad to do that in a closed 
hearing, sir.
    Mr. Ehlers. All right. Fine. And Mr. Howe, I noticed that 
you said that we are supposed to have 1,981 FTEs by fiscal year 
2004. Have those been approved and if so, by whom? I thought 
this was the authorizing committee for that, and that is news 
to me.
    Mr. Howe. Mr. Ehlers, I believe the committee has a bill 
that has cleared the committee. It cleared the House. It is 
presently pending before the Senate that authorizes that level.
    Mr. Ehlers. At that level?
    Mr. Howe. Yes, sir.
    Mr. Ehlers. I am sorry. I missed that one, and I shouldn't 
have.
    What are you doing for training your staff, your officers, 
in dealing with bioterrorism? I know a lot of mistakes were 
made dealing with the anthrax, but we can expect that to be 
repeated or alternative biological agents being distributed. 
What about chemical, and what about nuclear? Do you have any 
means of detecting radiation in case someone decides to 
disperse radioactive materials around the Capitol?
    Mr. Howe. We do have those capabilities, Mr. Ehlers, and I 
can get into those in more detail with you in the executive 
session. But late last year in the emergency supplemental, the 
Congress authorized the establishment of a chemical-biological 
strike team on the Capitol Police. We currently have 
applications under review to hire 60 individuals to staff this 
strike team. We expect it to be online by early November. It 
will be 60 individuals specifically dedicated to the detection, 
mitigation and cleanup of chemical-biological incidents. They 
are well trained. I am told that many of our applicants are 
currently members of the Marine Corps' chemical-biological 
incident response force who are leaving the military. So I 
think we will be able to put together an excellent team of 
individuals to handle just exactly that concern.
    Mr. Ehlers. I am primarily concerned about the first 
responders and that they handle it properly, which means 
training all of your officers in what to do in a first response 
to avoid tracking biologicals around, to knowing when to 
evacuate employees, when to seal off offices, turn off 
ventilation systems and so forth.
    Mr. Howe. We have learned a considerable amount, especially 
from the October 16th attack. Prior to that, we had been 
training all of our officers in what we call within the 
organization Alert 1, which is a familiarity level with 
chemical and biological materials and some nuclear materials. 
An additional cadre of probably 200, 250 officers of ours were 
trained to what we call an Alert 2 level. Alert 2 was how to 
evacuate other people, decontaminate individuals and that sort 
of thing. Each of our officers receives a minimum--each of our 
employees, including civilian employees, excuse me, receives a 
minimum awareness-level training on an annual basis.
    Mr. Ehlers. All right. I yield back the balance of my time.
    The Chairman. Thank you. Mr. Fattah.
    Mr. Fattah. Mr. Chairman, let me ask--I probably prefer to 
wait till we go into closed session.
    The Chairman. Thank you. Mr. Mica.
    Mr. Mica. Thank you. I appreciate your holding this 
important hearing, Mr. Chairman. A couple of things just from a 
practical standpoint. You said you have a system in place that 
will dial automatically 644 numbers. One of the problems I 
have--and I have got my cell phone with me. I used to be in the 
cell business, and I travel around the Capitol grounds here and 
I still can't get reception in certain areas. It is not very 
difficult to get these antennas out. I mean, today we should be 
able to have antennas throughout the place and be able to--we 
can get it in this room, but I can show you a lot of places 
where there are dead zones here. It is not technically that 
difficult, but it is nice to dial 644 numbers, but if nobody 
can get a response at the other end, I think we need to make 
sure that that is in place.
    I have spoken to the Architect, too, about--well, first of 
all, I believe that the United States Capitol building is still 
a target. I think that terrorists--if they took 8 years to--
from 1993 to September of 2001 to go after the World Trade 
Center, I feel that the most enduring symbol of our whole 
Nation is the Capitol building. I think they didn't get it last 
time. I believe that they will come back after us. That is 
unfortunate but, folks, we just have to learn by our 
experience, and that was a very tough lesson which we will 
remember tomorrow.
    In that regard, I think we have a responsibility to 
safeguard and save as much of the Capitol as we can if it is 
hit, and I don't know if a study has been done yet to see 
what--I know some studies have been done--I should correct 
that--to see what certain explosive devices will do, and I know 
some of those protections have been incorporated into the 
Visitor Center, but I think that we need to look even further 
than that. One of the things I have asked the Architect's 
office to do, and I will ask on the record again, as Chairman 
of Aviation I have seen equipment that will disperse an 
incredible volume of foam.
    Most of the millions of--tens of millions of dollars we are 
putting into fire extinguisher systems, which needs to be done 
for fire purposes throughout the Capitol, most of that 
equipment will not do anything with the kind of terrorist 
attack that we have already seen. I want a report back on the 
specific equipment that will disperse a protective substance 
and save as much of the Capitol building as possible if we are 
hit with an explosive device or we are hit with a plane that is 
loaded with fuel. So I have asked for that. I haven't received 
it, and I expect a response on that at some point.
    And while we have got the plaza dug up it is perfect time 
to fill one of those extra holes and spaces with that 
equipment. And I think it will work. I am not positive. I have 
been involved with some construction projects and development 
projects on the outside, but I have very reason to believe that 
it would offer us some backup protection at very little expense 
to save as much of the national treasures in the building as 
possible.
    The other thing, a simple thing, is evacuation route. I 
come from Florida, and we have hurricanes down there, and that 
is our threats. We have also had wildfires and other types of 
natural disasters. We do have posted evacuation routes. I have 
not seen nor would I even know how we would get out of this 
place again. I remember 1 year ago tomorrow the chaos that 
ensued, cars backed up, people getting out of here. Now, we 
should at least have a posted evacuation route on the routes 
leaving the Capitol building, and that is going to be very 
difficult now that we have got these concrete barriers if we 
have to get out of here--you know, I am not talking about the 
Members, but the staff and others. But there should be posted 
in the District, at least from the Federal buildings--return 
that traffic all into one-way or some plan, and I have not seen 
that. I think we need that. Again, just a practical system.
    The other thing that disturbs me, and I can go into it in 
the closed session, is I don't see the deployment of what I 
consider the latest technology of explosive detection devices 
and equipment. We can talk about that more in closed session, 
but I think we are still at risk in people bringing--I was 
told, you know, that the explosive material that Richard Reid 
had in his shoe would have taken out the side of that plane. It 
is not easy--it is not that easy or difficult to still get 
explosives the size of a backpack or a significant size of a 
package into the Capitol in strategic locations to do an 
incredible amount of damage, and I still don't see in place the 
equipment that I believe we should have in place for some 
screening on the--at least on the perimeters. So those are some 
of my concerns. The explosive detection portion we might want 
to talk about in closed session.
    Does anyone care to respond?
    Mr. Hantman. We will certainly get back to you on those 
items, Congressman. Certainly with respect to the foam and the 
evacuation issues, we will certainly address that in closed 
session, talk about the explosive detective systems.
    Mr. Livingood. On the traffic evacuation routes, we have 
notices the same. You are exactly correct. We have been working 
just recently with the D.C. Government on this for us and for 
others, and we will be posting in each office traffic 
evacuation routes.
    Mr. Mica. It is not just posting in the office--and I think 
that is important. That is our responsibility, and shame on us 
if we haven't done that. But also, I mean, it doesn't take that 
much to get a sign that this is the evacuation route notice. My 
God, if you go around the District of Columbia--we looked at 
some signs the other day--they have got 42 different 
instructions for every day of the week, but evacuation to me is 
very important. I am sorry. I still believe the United States 
Capitol and the Federal buildings are a target that these folks 
are not taking out. They will come back after it. It may be a 
week. It may be 8 years, but we need to at least say we put in 
place these measures, and the evacuation route is a very 
minimal----
    Mr. Livingood. And they will be in the near future.
    Mr. Mica. Thank you.
    The Chairman. Also one thing for the Sergeant at Arms, and 
the Architect of the Capitol is involved with this to an extent 
because of how things are done around the Capitol and how they 
are placed, and everybody knows this. You can see the 
construction down one of the streets. I think it is South 
Capitol. But the electronic drop barriers are put in, and at 
some point in time that eventually eliminates some of the 
Jersey barriers. If we have some type of incident, we will be 
able to get people out in a very, very quick manner. Right now 
you are seeing the barricades--as you have noticed this week, 
the Jersey barriers are gone. We have got fortification with 
the balusters. So some of that we will be able to have quicker 
evacuation routes. I thought maybe you would want to mention 
that.
    Mr. Mica. The other thing, too, Mr. Chairman, and this is 
just simple, I mean they have come after us. More than likely 
that plane that crashed in Pennsylvania was headed for the 
Capitol or the White House. it could be either, but a Federal 
building. Then we put all the barriers up and things we have 
done, Jersey barriers and all of those things, and they came 
after us with the mail. I mean, here I don't know if our staff 
is looking at simple things like our water supply into the 
Capitol, other avenues that they could come at us at with very 
small amounts of--you know, just a capful of some substance 
could take out a lot of people here.
    So I think we need to be one step ahead of the game. I 
would hope that our staff is looking at all of these things. 
And again, in closed session maybe we can talk about those. But 
we don't know how we are going to get hit. We just need to say 
we have done the best job. We can protect the thousands of 
people that work and serve here.
    Mr. Livingood. And in closed session I can answer those 
specifically.
    Mr. Mica. Thank you.
    The Chairman. Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman. Chief Howe, you 
indicated that we are losing officers to other agencies. Is 
that because the conditions in those other agencies are better 
than what we have here in the Capitol Police?
    Mr. Howe. It is a combination of things, Congressman. I 
think additionally--originally our pay was a bit lower than 
theirs, and I think originally the Transportation Security 
Administration was--you know, at the risk of criticizing a 
sister agency, was sort of gold-plating some of the jobs that 
they were handing out. It think they have ceased doing that. We 
are seeing the attrition level slow down. The committees have 
authorized a 5 percent pay increase for our officers this 
coming year. Coupled with the cost of living increase I think 
we will be very competitive with similarly situated agencies.
    Mr. Doolittle. What about the hours? I know talking to some 
of the officers, they were working sometimes like 6 days a week 
for 14 hours a day or something. It was pretty bad. Has that 
improved?
    Mr. Howe. That has decreased as well. Beginning in April, 
we started bringing in officers as best as we could back to a 
5-day week. Some of them are still working pretty long hours, 
some 12-hour days and things of that nature, but as we hire 
people and get those people on the line, that decreases for 
everybody. So that is----
    Mr. Doolittle. So things are improving, in your opinion?
    Mr. Howe. Rapidly, as a matter of fact. I think things will 
be a lot better in just a few short months. We expect to 
graduate another 122 officers before the end of this calendar 
year. I think things will get better quite quickly.
    Mr. Doolittle. Thank you. And, Mr. Eagen I join with my 
colleagues in my enthusiasm for the BlackBerry. However, I am 
also glad you are monitoring the new technologies, because 
there is always something better coming along. One thing that I 
have learned about that sounds pretty good is the Handspring, 
which apparently combines at least the e-mail function and the 
cellular telephone function. I don't know about the pager 
function. Maybe that is in there, too, but, you know, I would 
appreciate your--because that is a nice small thing. I don't 
know how big this Tablet thing is you are talking about. Is 
that about the same size as the BlackBerry?
    Mr. Eagen. No. The Tablet PC is more about the size of this 
piece of paper.
    Mr. Doolittle. Well, I have heard of those, and those sound 
very interesting, but one of the great features of the 
BlackBerry is the size.
    Mr. Eagen. We did see demonstrations of the next generation 
of both cellular phones that are integrated with Palm and 
BlackBerry and Handspring kind of technology, and then we also 
saw Blackberries and those kinds of devices that had a phone 
integrated. They don't seem to be all the way there to the 
ideal thing. For example, in the one we saw, a BlackBerry-type 
device, it is kind of a flip-up phone, but of course as soon as 
you start talking on the phone, you can't see the BlackBerry 
anymore.
    And then conversely, we saw ones that didn't use the flip-
open phone, but the way to connect to it is an ear plug, and 
that seems to be something that people either really like or 
they really hate. So it looks like they are getting close, but 
they haven't quite hit the home run yet.
    Mr. Doolittle. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. I asked some critical questions. I didn't mean to 
be critical, but I just want to say one thing to our Sergeant 
at Arms and Acting Chief. I participated in some memorial 
services at home this weekend. One of things that I remembered 
and I told the crowd was when I left here--I came back from the 
Pentagon. I was at a meeting at the Pentagon and just missed by 
a few minutes being at the Pentagon to get here in time to see 
the Pentagon actually hit, but I told the crowd I will never 
forget an officer coming down the hall saying, Mr. Mica--my 
wife was with me--Mrs. Mica, you have got to leave. We think 
another plane is headed for the Capitol building, and I 
remember those people, I want you to know.
    And then we started out and we got out in our car and we 
tried to go up Pennsylvania Avenue, which was the closest 
route, and there was a female officer, and she stood there and 
said, Mr. Mica, Congressman, don't go up that way because we 
are convinced a plane is headed here and you will be at risk. 
When my wife and I got back, we thought, oh, my God, those 
people are back there and--you know, one thing we have'nt 
done--I don't know if we did it. We should have a resolution to 
commend those people who acted so heroically that day. They 
stayed behind when they provided escape and tried to help us 
get away from here, because everyone knows it was disorganized, 
confusion, but you go back and tell those folks we appreciate 
it. Maybe we could do a resolution to commend them, because 
they were here knowing that they were standing in what might 
have been a target except for a few brave people on an aircraft 
in Pennsylvania.
    Mr. Livingood. We will tell them that, Mr. Mica. If I 
could--and I have talked about it before, and it is a subject 
that is very close to my heart and an emotional subject--that 
day on the 11th after the Capitol Police had cleared the 
Capitol building, I was in the Capitol. And we did a last-
minute walk-through. They were at the doors--there were three 
of them there, a lieutenant and two officers--and they said to 
me, Mr. Livingood, we will man these doors no matter what 
unless you tell us not to, and they knew--at that time they 
thought a plane was coming, but they were willing to stay at 
that door no matter what. I think that speaks volumes.
    The Chairman. Any other question? One thing I would want to 
comment on, the communications after 9/11 occurred and the 
Capitol was evacuated. As you know, the Congress went back to 
do its business. The one overwhelming theme I have heard, and 
it has been raised today, but it is communications. Members of 
the House were worried about to make sure proper security was 
here for staff, to make sure the Capitol remained open, to be 
cautious but calm, have security but have the people's House 
open. I believe we have all accomplished that, but the 
communications was the one item, and I don't know what 
technologically comes down the pike soon to have, you know, a 
system that will be good, that will work extensively. But 
communication was the one part, and that is why I supported 
Congressman Langevin's study that looks at--does a proper study 
to look at the communications and how we can function as a 
Congress, because if people have elected Members, then during a 
crisis they want those Members to be able to communicate, and 
the government extends beyond one, two or eight people. So I 
think that was another lesson we learned was the 
communications. I know we have got--ideas are out there, and we 
have to continue on that very diligently, as much as we can, so 
that the Members during a crisis will be able to communicate no 
matter where we are at and be available for votes or whatever 
official business we have to do. So I think that is going to be 
something we have got to press to the wall to continue.
    Are there further questions?
    Mr. Hoyer. Mr. Chairman, I presume we are about to go into 
Executive Session, but before we do I want to thank you. I have 
worked with the Assistant Chief and the Chief and his 
predecessor over the last, I guess, 3 or 4 years, because I 
have been very concerned about the FTE level of our police 
officers. Both before and certainly after Officer Chestnut and 
Officer Gibson lost their lives, I was very concerned about the 
number of people that we had on doors from which hundreds of 
people come, mostly tourists, mostly somewhat disorganized and 
sort of interested in seeing, which is what we want them to be, 
but very difficult for the officers to deal with in a secure 
way. You were critical, and this committee was critical, in 
supporting efforts and giving us a consensus on the Legislative 
Appropriations Committee to fund the level that the Chief, the 
Acting Chief has said was necessary, somewhere in the 
neighborhood of between 1,902 officers, which are I guess 
about--Chief, what, about 1,650 uniformed and about 350 
nonuniformed personnel?
    Mr. Howe. That is very close, Mr. Hoyer.
    Mr. Hoyer. But your reference on that was critical, and we 
had difficulty, but I think everybody now in the Congress 
understands that it is easy to make some sort of analysis that, 
well, a city of X thousands has only a police force of 500 
people or 400 people, but I think Mr. Mica is absolutely 
correct. I can't believe that there is a higher priority target 
than the Capitol of the United States, and there is no doubt in 
my mind that the plane that went down in Pennsylvania was going 
for the dome. The White House is down in the trees. It is hard 
to see. It would be difficult to frankly get into, but had they 
been able to take off the dome of the Capitol, that would have 
been a stark picture in the minds of every citizen of the 
world, because that is a symbol of the freest Nation and the 
symbol of democracy in the world, not just in this country. And 
therefore, Chief, Mr. Ney, as you know, was critically 
important in getting the kind of support we needed to make sure 
we have the complement, and we need to get you up to that FTE 
level as quickly as we can, as quickly as we can get recruits 
through.
    I have expressed concern, others have expressed concern, 
about the TSA's competition because of the disparity of pay and 
other aspects of the job, including hours. I think you are 
right. I think that is evening out somewhat now, but I think it 
is critically important that this committee was supportive of 
the levels that we need given the complexity of the job of 
protecting the physical being of the Capitol and then not just 
the thousands of people who work here but the millions of 
people from this country, citizens and also hundreds of 
thousands of people from other countries who visit this 
Capitol.
    So thank you, Mr. Chairman.
    The Chairman. Any other questions or comments? Let me just 
say in conclusion before we entertain a motion. I just want to 
thank all of you today for your time that you made available to 
the committee. I want to thank all of you personally. We 
watched you behind closed doors. You had the integrity we 
needed, truly cared about all the people that work in this 
complex. We saw that. It was honest emotion and concern for the 
lives of thousands of people. And also your desire to keep 
pushing on to keep the people's House open and all of your 
staff and all of the staff of the House and the Senate. You 
know, people talk about lack of heroes today, but in my mind, 
the people I saw, staff and personnel, offices, committees, 
yourself, the officers of the House staff, they had a desire 
and dedication to make sure that this system continued, which 
the evil that has been after this country wants it to stop, and 
I just want to commend everybody for a tremendous job. I think 
that there are many, many heroes in this building, and we 
remember today all the people that have lost their lives, and 
we appreciate and I think that their families want our system 
to continue versus the alternative that has tried to stop our 
way of life. So I commend all of you and your staff for doing 
that.
    All right. We have now reached a point in the hearing where 
we would like to give both Members and witnesses an opportunity 
to discuss issues with sensitive security implications. As a 
result I will entertain a motion to close and proceed in 
Executive Session.
    Mr. Fattah. So moved.
    The Chairman. Thank you. I just want to note it is rare a 
committee proceeds in this manner, so I appreciate it, but it 
has been moved by Mr. Fattah, and at that point, we will ask 
for a recorded vote on the motion. The Clerk will call the 
roll.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Ehlers votes aye.
    Mr. Mica. Aye.
    The Clerk. Mr. Mica votes aye.
    Mr. Linder.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Doolittle votes aye.
    Mr. Reynolds.
    [No response]
    The Clerk. Mr. Hoyer.
    Mr. Hoyer. Aye.
    The Clerk. Mr. Hoyer votes aye.
    Mr. Fattah.
    Mr. Fattah. Aye.
    The Clerk. Mr. Fattah votes aye.
    Mr. Davis.
    [No response]
    The Clerk. And Chairman Ney.
    The Chairman. Aye.
    The Clerk. Chairman Ney votes aye.
    The Chairman. We have 6 ayes and no nays. The motion is 
agreed to.
    The committee now stands in Executive Session. Only 
members, officers and predesignated committee staff shall 
remain present for that portion of the committee meeting. The 
committee will now stand in recess for 5 minutes. Thank you.
    [Whereupon, at 3:00 p.m., the committee proceeded in 
Executive Session.]

</pre></body></html>
